Audit Report


Return to the USDOJ/OIG Home Page



No Suspect Casework DNA Backlog Reduction Program, Cooperative Agreement Awarded to the State of Texas, Department of Public Safety, Austin, Texas

Report No. GR-80-04-008


September 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the No Suspect Casework DNA Backlog Reduction Cooperative Agreement (agreement) awarded to the Texas Department of Public Safety by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), National Institute of Justice (NIJ).  The purpose of this agreement is to examine no suspect cases using federal funding to pay for overtime, equipment for increasing capacity, supplies for DNA analysis, consultants for in-house analysis, and contracts for outsourcing.  Also, funds will be used to reduce the number of untested no suspect cases by effectively using the Combined DNA Index System (CODIS) to search the DNA profile from the evidence against DNA profiles of convicted offenders and evidentiary profiles on other criminal cases.  DNA profiles obtained from evidence collected in cases where there is no suspect can be compared to local, state, and national DNA databases through CODIS for a match between the evidence and a convicted felon.  The Texas Department of Public Safety was awarded a total of $3,379,688 to analyze no suspect cases.  

We tested the Texas Department of Public Safety's accounting records to determine if reimbursements claimed for costs under the agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement. 

We discussed the results of our audit with the Texas Department of Public Safety officials and included their comments in the report as applicable.  All discrepancies identified during fieldwork were resolved during the draft report phase of this audit; therefore, this report contains no recommendations and is issued closed.  Our audit objectives, scope, and methodology appear in Appendix I.